S,             Office of Audits
               Office of Inspector General
               U.S. General Services Administration




                Audit of the Infrastructure
                as a Service Blanket
                Purchase Agreements
                Report Number A110172/Q/A/P12008
                June 4, 2012




     A110172/Q/A/P12008
                     Office of Audits
                     Office of Inspector General
                     U.S. General Services Administration


                                     REPORT ABSTRACT
                              Audit of the Infrastructure as a Service Blanket Purchase
                              Agreements
                              Report Number A110172/Q/A/P12008
OBJECTIVE
                              June 4, 2012
The objective of this audit
was to determine if the       WHAT WE FOUND
Federal Acquisition           We identified the following during our audit:
Service’s Office of           Finding 1 – The lack of a strategy to determine the number of Blanket
Integrated Technology         Purchase Agreements to award reduced the effectiveness of the
Services planned,             Blanket Purchase Agreements.
awarded, and                  Finding 2 – A Blanket Purchase Agreement was awarded to an offeror
documented the                that did not meet the technical requirements of the solicitation.
Infrastructure as a Service   Finding 3 – The absence of collaboration between evaluation teams
Blanket Purchase              reduced the Government’s ability to realize maximum cost savings of
Agreements in                 cloud-based solutions.
accordance with the           Finding 4 – The contract file documentation did not support award
Federal Acquisition           decisions and did not provide a complete history of the acquisition.
Regulation, the General       WHAT WE RECOMMEND
Services Administration       We recommend the Commissioner of the Federal Acquisition Service:
Acquisition Manual, and
                              1. Strengthen the Integrated Technology Services’ Contract Review
other applicable policies.
                                 Board process for high dollar, complex, and/or highly visible
If not, identify
                                 acquisitions. Specifically, the Contract Review Board should:
improvements the Office
                                     a. Verify that acquisition personnel adequately address special
of Integrated Technology
                                         considerations associated with the contract vehicle chosen
Services can make to
                                         in the acquisition strategy;
assist in planning,
                                     b. Confirm that award decisions are supported by the results of
awarding, and
                                         evaluation determinations; and
documenting future
                                     c. Review the contract file to verify a complete history of the
blanket purchase
                                         acquisition is established in the official file of record.
agreements.
                              2. Review the BPA award to the offeror that did not meet the technical
                                 requirements of the solicitation and take action to ensure
Acquisition Programs             compliance with applicable procurement regulations.
Audit Office (JA-A)           3. Structure future acquisition teams to encourage collaboration and
241 18th Street South            leverage the expertise of all team members.
Suite 607                     MANAGEMENT COMMENTS
Arlington, VA 22202           The Commissioner of the Federal Acquisition Service concurred with
(703) 603-0189                the report recommendations. See Appendix B for management’s full
                              response.


     A110172/Q/A/P12008                        i
                  Office of Audits
                  Office of Inspector General
                  U.S. General Services Administration


 DATE:            June 4, 2012

 TO:              Steven J. Kempf
                  Commissioner, Federal Acquisition Service (Q)

 FROM:            Lindsay S. Mough
                  Audit Manager, Acquisition Programs Audit Office (JA-A)

 SUBJECT:         Audit of the Infrastructure as a Service Blanket Purchase Agreements
                  Report Number A110172/Q/A/P12008

This report presents the results of our audit of the Infrastructure as a Service Blanket
Purchase Agreements. Our findings and recommendations are summarized in the
Report Abstract. Instructions regarding the audit resolution process can be found in the
email that transmitted this report.

Your written comments to the draft report are included in Appendix B of this report.

If you have any questions regarding this report, please contact me or any member of
the audit team at the following:

  Lindsay Mough      Audit Manager       lindsay.mough@gsaig.gov       703-603-0269
  Susan Myers        Auditor-In-Charge susan.myers@gsaig.gov           703-603-0222
  Jeremy Martin      Auditor             jeremy.martin@gsaig.gov       703-603-0227

On behalf of the audit team, I would like to thank you and your staff for your assistance
during this audit.




A110172/Q/A/P12008                      ii
Table of Contents
Introduction .............................................................................................................. 1

Results
Finding 1 – The lack of a strategy to determine the number of Blanket Purchase
            Agreements to award reduced the effectiveness of the Blanket
            Purchase Agreements ............................................................................. 2
Finding 2 – A Blanket Purchase Agreement was awarded to an offeror that did not
            meet the technical requirements of the solicitation .................................. 3
Finding 3 – The absence of collaboration between evaluation teams reduced the
            Government’s ability to realize maximum cost savings of cloud-based
            solutions .................................................................................................. 4
Finding 4 – The contract file documentation did not support award decisions and
            did not provide a complete history of the acquisition ............................... 5
Other Observations .................................................................................................... 5
Recommendations ..................................................................................................... 6
Management Comments ............................................................................................ 6

Conclusion................................................................................................................ 7

Appendixes
Appendix A – Purpose, Scope, and Methodology ............................................. A-1
Appendix B – Management Comments .............................................................. B-1
Appendix C – Report Distribution ....................................................................... C-1




A110172/Q/A/P12008                                        iii
Introduction
Cloud computing is a major component of both the President’s initiative to modernize
information technology and the Office of Management and Budget’s Cloud First Policy.
Cloud computing allows agencies to reduce information technology costs by using
commercially available technology based on virtualization of servers, databases, and
applications. The federal cloud computing initiative promotes sharing and reusing
common infrastructure, information, and solutions across the Government. The overall
goal of the transition to cloud-based services is to create a more agile federal enterprise
using on-demand services to meet the Government’s needs.

To help achieve this goal, GSA created and launched a portfolio of cloud computing
service offerings including cloud-based Infrastructure as a Service, Software as a
Service, and Platform as a Service. Infrastructure as a Service provides storage,
computing power, and web hosting without the need to expand existing infrastructure.
As part of its efforts to bring cloud solutions to the federal marketplace, GSA developed
a charter to create the Cloud Computing Services Program Management Office (cloud
PMO). This charter outlined the roles and responsibilities for cloud services offerings
within GSA. Under this charter, the Federal Acquisition Service is responsible for all
cloud offerings while the Office of Citizen Services and Innovative Technologies is
responsible for ensuring cloud services meet customer requirements.

In May 2010, the Federal Acquisition Service issued a solicitation to Schedule 70
contractors for the Infrastructure as a Service Blanket Purchase Agreements (BPAs). In
October and November 2010, BPAs were awarded to 12 contractors. The BPAs offer
customers three service categories or lots: 1 cloud storage services, virtual machines,
and cloud web hosting. These service offerings are provided to ordering agencies at or
below the contractors’ Schedule 70 prices.

Our objective was to determine if the Federal Acquisition Service’s Office of Integrated
Technology Services planned, awarded, and documented the Infrastructure as a
Service BPAs in accordance with the Federal Acquisition Regulation (FAR), the General
Services Administration Acquisition Manual (GSAM), and other applicable policies. If
not, identify improvements the Office of Integrated Technology Services can make to
assist in planning, awarding, and documenting future BPAs.

See Appendix A – Purpose, Scope, and Methodology for additional details.




1
  There are eighteen Contract Line Item Numbers (CLINs) between the three lots. Within each CLIN,
there are subCLINs that are priced individually.


A110172/Q/A/P12008                          1
Results
The Office of Integrated Technology Services did not fully plan, award, and document
the BPAs in accordance with the FAR and GSAM. In addition, the BPAs were not
reviewed by an Integrated Technology Services Contract Review as required by
Acquisition Notice QTA-2008-07 Revision 4. A Contract Review Board is established to
determine if specific contractual actions comply with applicable laws and regulations
and reflect sound business judgment. Instead of convening a formal Contract Review
Board, certain documents related to the BPAs were evaluated independently by various
individuals within the Federal Acquisition Service and the Office of Citizen Services and
Innovative Technologies.

While we recognize that GSA views bringing cloud solutions to the federal marketplace
as a priority, this should not come at the expense of sound contracting practices.
Overall, we identified improvements the Office of Integrated Technology Services can
make in planning, awarding, and documenting future BPAs.

Finding 1 – The lack of a strategy to determine the number of Blanket Purchase
Agreements to award reduced the effectiveness of the Blanket Purchase
Agreements.

The contracting officer did not base the number of BPAs to award on a strategy to
maximize the effectiveness of the Infrastructure as a Service BPAs. Instead, the
contracting officer planned to award to any offerors able to meet the requirements cited
in the solicitation.

FAR 8.405-3(a)(1) outlines four factors to consider when determining the number of
BPAs to award: (1) scope and complexity of the requirement(s), (2) the need to
periodically compare multiple technical approaches or prices, (3) the administrative
costs of BPAs, and (4) the technical qualifications of the schedule contractor(s). The
contracting officer did not take these factors into account and thereby diminished the
value of non-technical evaluation factors. This, in turn, affected the contracting officer’s
ability to obtain the best value for the Government.

In this case, a formal Contract Review Board was not convened to evaluate these
awards. Even if it had been, it may not have identified that a strategy to determine the
number of BPAs to award was not developed. The FAR cite referenced above is
specific to BPAs, and the Contract Review Board policy does not account for special
considerations specific to certain contracting vehicles. Changing the policy in this regard
could strengthen future Contract Review Board evaluations.




A110172/Q/A/P12008                       2
Finding 2 – A Blanket Purchase Agreement was awarded to an offeror that did not
meet the technical requirements of the solicitation.

The contracting officer awarded a BPA to an offeror that did not meet the technical
requirements of the solicitation. The contracting officer made this decision based on the
premise that prior to doing business under the BPA, the offeror would undergo an
Assessment and Authorization process that would ensure the offeror met technical
requirements. However, shifting the determination of compliance with technical
requirements to the Assessment and Authorization process and awarding this BPA was
not a sound decision.

FAR 8.405-2(d) states that all responses received shall be evaluated using the criteria
provided to the schedule contractors. The solicitation outlined four non-price factors2 to
be evaluated using a Pass/Fail methodology. The technical evaluation team failed one
offeror for not meeting all technical requirements of the Infrastructure as a Service
technical evaluation factor. Specifically, the offeror was unable to affirm that a specific
requirement necessary to obtain a security authorization through the Assessment and
Authorization process 3 would be available at time of award. Awardees are responsible
for obtaining and maintaining a valid authorization in order to hold a BPA.

Although the technical evaluation team identified an offeror as not meeting the technical
requirements of the solicitation, the contracting officer awarded a BPA to this offeror.
The contracting officer stated that the Assessment and Authorization process would
serve as a final control to ensure awardees are technically acceptable. However, the
solicitation outlines that BPAs awards would be made to responsible offerors
determined to be technically acceptable with fair and reasonable prices. Based on the
evaluation criteria in the solicitation, a BPA should not have been awarded to this
offeror. FAS should review this award and take action, as appropriate.

To help prevent unsound award decisions in the future, the Contract Review Board
process should be strengthened. While the Contract Review Board is responsible for
reviewing source selection decisions to ensure sound business judgment is reflected,
the policy does not specify what documentation should be examined in reviewing
source selection decisions. In this case, the offeror was documented as technically
acceptable in the Source Selection Decision Document, but not in the technical team’s
consensus evaluation documentation. Therefore, a Contract Review Board may not
have identified this discrepancy. While we do not expect the Contract Review Board to
reconstruct the entire award or question the contracting officer’s award decisions,
confirming that source selection decisions are adequately supported could strengthen
the review process.

2
  The four non-price factors include: Cloud Technical Requirements, Infrastructure as a Service Technical
Requirements, Lot Specific Technical Requirements, and Past Performance.
3
  GSA conducts an Assessment and Authorization process to ensure awardees’ information security
practices are functionally equivalent to those outlined in the National Institute of Standards and
Technology Special Publication 800-53, Recommended Security Controls for Federal Information
Systems, for moderate impact systems.


A110172/Q/A/P12008                             3
Finding 3 – The absence of collaboration between evaluation teams reduced the
Government’s ability to realize maximum cost savings of cloud-based solutions.

The price evaluation team did not perform a reliable price analysis and did not work
effectively with the technical evaluation team to ensure the awards represented the best
value for the customer. FAR 8.4 states that a BPA established with a schedule
contractor should represent the best value, resulting in the lowest overall cost
alternative considering price, special features, and administrative costs.

To determine best value, the acquisition team should evaluate prices in conjunction with
other factors, such as technical terms and conditions. However, the acquisition team
was structured in a manner that did not promote collaboration between the two
evaluation teams. Specifically, the pricing evaluation team was comprised of individuals
from the Office of Integrated Technology Services, while the technical evaluation team
was primarily comprised of individuals from the Office of Citizen Services and Innovative
Technologies. This structure made it difficult to leverage the expertise of both teams
because they were in different geographical locations and organizations. Ultimately, the
price evaluation team placed too large of an emphasis on the proposed discounts and
did not conduct a more comprehensive analysis of prices. Therefore, the awards did not
necessarily represent the best value for the Government. For example:

   •   An offeror proposed a 90 percent discount from its Schedule 70 contract prices,
       while another offeror proposed no discount. Even with a 90 percent discount, the
       price was higher than the non-discounted price. Although an offeror may propose
       a large discount, its price may not be competitive when compared to the price of
       another offeror.
   •   Two offerors, acting as resellers for the same third-party partner, were awarded
       identical subCLINs. However, one offeror’s average quoted price was
       approximately 55 percent higher than the other. As a result, customer agencies
       may pay different prices for identical items depending on which BPA they use in
       placing their order.
   •   The price evaluation team identified one subCLIN in which the highest price
       quoted was $75.00 and the lowest was $0.00018 but did not determine the
       reason for this discrepancy in pricing. We reviewed a sample of 56 subCLINs
       and found that the highest price offered ranged from 61 percent to 42 million
       percent above the lowest price offered. These large pricing variances may
       indicate that offerors do not understand the requirements in the solicitation.

The price evaluation team stated that differences in terms and conditions could be the
reason for these offerors’ higher prices. However, there is no evidence that terms and
conditions were analyzed in conjunction with pricing. Meeting with the technical
evaluation team to discuss the price variances in relation to terms and conditions could
have ensured that the BPAs represented the best value for the Government. Without
collaboration between the two teams, the maximum cost savings that are a touted
benefit of using cloud-based solutions may not have been realized.




A110172/Q/A/P12008                      4
Finding 4 – The contract file documentation did not support award decisions and
did not provide a complete history of the acquisition.

The contract file was not documented in accordance with the requirements of FAR
4.801(b). Some key contract documents could not be found while others were located
outside the contract file. As such, the contract file was incomplete and certain
contracting actions were not adequately supported.

Documents related to the evaluation of offerors were missing from the contract file;
therefore, a complete background for award decisions was not available. FAR 4.801(b)
states that contract files should constitute a complete history of the transaction in order
to support actions taken. Two of the twelve summary worksheets supporting the source
selection recommendations could not be found. Without these key documents, the
award decisions are not fully supported.

Documentation supporting the evaluation of the offerors and the legal review were not in
the contract file and it took 5 weeks to locate technical evaluation documentation. In
addition, we had to request the pricing evaluation documentation multiple times
because two individuals maintained their respective analyses outside the contract file.
Further, evidence of legal review was not in the contract file and the contracting officer
could only provide email correspondence from legal counsel. Although these records
were eventually located, looking for them delayed our audit. More importantly, this
situation raises concerns about safeguarding proprietary information.

Other Observations

   •   The BPAs do not offer a total solution to assist ordering agencies in the transition
       from a traditional to a cloud-based information technology structure. According to
       the acquisition plan, the BPAs would fulfill the Government’s requirement for
       easy access to cloud computing. Despite this goal, the cloud PMO did not ensure
       professional services required for migration to the cloud were included under the
       BPAs. The PMO charter does not outline specific responsibilities for planning the
       BPAs, could have contributed to not planning for these necessary services.
       Ultimately, ordering agencies may need to use an additional contract vehicle to
       procure a complete cloud solution, which does not support FAS’s goal of easy
       access to cloud computing. FAS personnel informed us that they recognized this
       and included professional services in a subsequent cloud-based BPA solicitation.

   •   The contracting officer did not evaluate a diverse set of contractor performance
       reports. For one offeror, the contracting officer sampled 3 of 23 available reports.
       All three reports were completed by the same assessor and two rated the same
       contract. For another offeror, the contracting officer sampled 3 of 13 available
       reports; the same assessor completed two of these reports. While we do not
       expect the contracting officer to sample all past performance information, there
       should be some effort to obtain a more diverse set of past performance




A110172/Q/A/P12008                       5
        information. By not sampling a more diverse set of reports, the contracting officer
        may not obtain a thorough representation of the offeror’s past performance.

    •   The price evaluation team created a competitive price range based on initial price
        offerings but did not update the range to reflect the final prices submitted. We
        compared the initial and final price quotations for 5 of the 12 awardees 4 and
        identified discounts from the initial prices ranging from 0 to 50 percent. One
        offeror increased its final quoted price for eight subCLINs by 13 percent. As a
        result, the competitive price range shifted, affecting the competitiveness of the
        prices offered. Evaluation of future BPAs should be performed on the prices
        offered in the final quotation revisions.

Recommendations

We recommend that the Commissioner of the Federal Acquisition Service:
1. Strengthen the Integrated Technology Services’ Contract Review Board process for
   high dollar, complex, and/or highly visible acquisitions. Specifically, the Contract
   Review Board should:
            a. Verify that acquisition personnel adequately address special
               considerations associated with the contract vehicle chosen in the
               acquisition strategy;
            b. Confirm that award decisions are supported by the results of evaluation
               determinations; and
            c. Review the contract file to verify a complete history of the acquisition is
               established in the official file of record.
2. Review the BPA award to the offeror that did not meet the technical requirements of
   the solicitation and take action to ensure compliance with applicable procurement
   regulations.
3. Structure future acquisition teams to encourage collaboration and leverage the
   expertise of all team members.

Management Comments

The Commissioner of the Federal Acquisition Service concurred with the report
recommendations. Management’s written comments to the draft report are included in
their entirety as Appendix B.




4
 Our initial sample included six awardees; however, only five were analyzed because we could not
determine if the industrial funding fee was included in the initial price quote for one of the awardees.


A110172/Q/A/P12008                             6
Conclusion
The Office of Integrated Technology Services did not fully plan, award, and document
the BPAs in accordance with the FAR and GSAM. In addition, the BPAs were not
reviewed by an Integrated Technology Services Contract Review Board in accordance
with Acquisition Notice QTA-2008-07 Revision 4. Specifically we found the following: (1)
a strategy to determine the number of BPAs to award was not developed, (2) a BPA
was awarded to an offeror that did not meet the technical requirements of the
solicitation, and (3) collaboration between evaluation teams did not occur. We also
identified that the contract file documentation does not support award decisions and
does not provided a complete history of the acquisition. These issues reduced the
overall effectiveness of the BPAs and affected the Government’s ability to leverage the
benefits of using BPAs.




A110172/Q/A/P12008                     7
Appendix A – Purpose, Scope, and Methodology
                                                         Report Number A110172/Q/A/P12008

Purpose

The General Services Administration (GSA) Office of Inspector General included this
audit in its Fiscal Year 2011 Audit Plan.

Scope

The audit’s scope was limited to the award and administration of the Infrastructure as a
Service Blanket Purchase Agreements (BPAs).

Methodology

To accomplish our objective, we:

   •   Reviewed relevant criteria from the Federal Acquisition Regulation, General
       Services Administration Acquisition Manual, GSA Orders, and Office of
       Integrated Technology Services Acquisition Notices.
   •   Analyzed documents contained in the BPA master contract file.
   •   Sampled 6 of the 12 awardees to review the individual technical evaluations,
       clarification letters, and past performance evaluations. This was a risk-based
       judgmental sample based on the preliminary results of the survey phase of this
       audit.
   •   Performed an in-depth analysis of the price evaluation for all awardees.
   •   Reviewed all available consensus technical evaluation documentation for the
       awardees.
   •   Verified the annual review of all the BPAs, and the modifications necessary to
       schedule contracts to be eligible for BPA award.
   •   Interviewed personnel from the Federal Acquisition Service and the Office of
       Citizens Services and Innovative Technologies and obtained responses to
       questions and observations from our analysis of the contract files.

We conducted the audit between June 2011 and December 2011 in accordance with
generally accepted Government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Internal Controls

The examination of internal controls was limited to the blanket purchase agreements
reviewed during this audit. Thus, our evaluation of internal controls was limited to items
discussed in the Results section of this report.


A110172/Q/A/P12008                     A-1
Appendix B – Management Comments
                                   Report Number A110172/Q/A/P12008




A110172/Q/A/P12008    B-1
Appendix B – Management Comments (cont.)
                                  Report Number A110172/Q/A/P12008




A110172/Q/A/P12008     B-2
Appendix B – Management Comments (cont.)
                                  Report Number A110172/Q/A/P12008




A110172/Q/A/P12008     B-3
Appendix B – Management Comments (cont.)
                                  Report Number A110172/Q/A/P12008




A110172/Q/A/P12008     B-4
Appendix B – Management Comments (cont.)
                                  Report Number A110172/Q/A/P12008




A110172/Q/A/P12008     B-5
Appendix B – Management Comments (cont.)
                                  Report Number A110172/Q/A/P12008




A110172/Q/A/P12008     B-6
Appendix B – Management Comments (cont.)
                                  Report Number A110172/Q/A/P12008




A110172/Q/A/P12008     B-7
Appendix B – Management Comments (cont.)
                                  Report Number A110172/Q/A/P12008




A110172/Q/A/P12008     B-8
Appendix B – Management Comments (cont.)
                                  Report Number A110172/Q/A/P12008




A110172/Q/A/P12008     B-9
Appendix B – Management Comments (cont.)
                                  Report Number A110172/Q/A/P12008




A110172/Q/A/P12008     B-10
Appendix B – Management Comments (cont.)
                                  Report Number A110172/Q/A/P12008




A110172/Q/A/P12008     B-11
Appendix B – Management Comments (cont.)
                                  Report Number A110172/Q/A/P12008




A110172/Q/A/P12008     B-12
Appendix B – Management Comments (cont.)
                                  Report Number A110172/Q/A/P12008




A110172/Q/A/P12008     B-13
Appendix B – Management Comments (cont.)
                                  Report Number A110172/Q/A/P12008




A110172/Q/A/P12008     B-14
Appendix B – Management Comments (cont.)
                                  Report Number A110172/Q/A/P12008




A110172/Q/A/P12008     B-15
Appendix B – Management Comments (cont.)
                                  Report Number A110172/Q/A/P12008




A110172/Q/A/P12008     B-16
Appendix B – Management Comments (cont.)
                                  Report Number A110172/Q/A/P12008




A110172/Q/A/P12008     B-17
Appendix B – Management Comments (cont.)
                                  Report Number A110172/Q/A/P12008




A110172/Q/A/P12008     B-18
Appendix B – Management Comments (cont.)
                                  Report Number A110172/Q/A/P12008




A110172/Q/A/P12008     B-19
Appendix B – Management Comments (cont.)
                                  Report Number A110172/Q/A/P12008




A110172/Q/A/P12008     B-20
Appendix B – Management Comments (cont.)
                                  Report Number A110172/Q/A/P12008




A110172/Q/A/P12008     B-21
Appendix B – Management Comments (cont.)
                                  Report Number A110172/Q/A/P12008




A110172/Q/A/P12008     B-22
Appendix B – Management Comments (cont.)
                                  Report Number A110172/Q/A/P12008




A110172/Q/A/P12008     B-23
Appendix B – Management Comments (cont.)
                                  Report Number A110172/Q/A/P12008




A110172/Q/A/P12008     B-24
Appendix C – Report Distribution
                                                           Report Number A110172/Q/A/P12008

Commissioner, Federal Acquisition Service (Q)

Deputy Commissioner, Federal Acquisition Service (Q1)

Chief of Staff, Federal Acquisition Service (Q0A)

Assistant Commissioner, Office of Integrated Technology Services (QT)

Director, Office of Acquisition Operations (QTA)

Division Director, GAO & IG Audit Response Division (H1C)

Acting Director, Audits and Controls Division (QB0C)

Assistant IG for Auditing (JA)

Deputy Assistant IG for Investigations (JID)

Director, Audit Planning, Policy, and Operations Staff (JAO)




A110172/Q/A/P12008                       C-1
